Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICAID’S MENTAL HEALTH
   DRUG EXPENDITURES




                     INSPECTOR GENERAL

                      AUGUST 2003
                      OEI-05-02-00080
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                       EXECUTIVE SUMMARY

OBJECTIVE

     To measure the efficiency and economy of the Medicaid program as a purchaser of mental
     health drugs by comparing Medicaid to four other Federal payers.

BACKGROUND

     Title XIX of the Social Security Act established Medicaid as a jointly-funded, Federal-State
     health insurance program. Medicaid plays a fundamental role in the provision of prescription
     drugs to over 42 million low-income and disabled beneficiaries, spending an estimated $20
     billion in 2001.

     In purchasing mental health drugs, as with all Medicaid expenditures, Title XIX requires States,
     as part of their State plan, to provide “methods and procedures” to assure that payments are
     “consistent with efficiency, economy, and quality of care.” The Centers for Medicare &
     Medicaid Services (CMS) exercises this control in two ways: by placing aggregate limits on
     pharmacy reimbursements and collecting statutorily-defined manufacturer rebates.

     Despite efforts to save program dollars, drug costs are the fastest growing component of
     Medicaid expenditures, growing an average annual rate of 20 percent compared to overall
     Medicaid expenditure growth of 9 percent from 1998 to 2000. According to a report issued
     by the United States Surgeon General, spending on drugs used to treat mental disorders are
     among the fastest rising costs for Medicaid.

     Of the $20 billion the Medicaid program spent on prescription drugs, mental health drugs
     represent an estimated 20 percent, or $4 billion.

     Methodology

     To assess the efficiency and economy of Medicaid’s drug expenditures, this inspection
     compared Medicaid’s average net costs for mental health drugs to four other Federally-
     discounted prices: 1) Federal Ceiling Prices, 2) 340B Drug Discount Program ceiling prices, 3)
     Federal Supply Schedule prices, and 4) Big 4 (Department of Defense, Department of
     Veterans Affairs, Public Health Service and the Coast Guard) prices. These programs’ prices
     serve as criteria by which to assess the economy of Medicaid’s drug purchasing, without any
     judgement as to the appropriateness of different Federal drug purchasing mechanisms.


   Medicaid Mental Health Drugs                  i                                        OEI-05-02-00080
      To calculate Medicaid’s net average price, we secured information on 25 mental health drugs
      from the 10 State Medicaid agencies with the largest reimbursement for prescription drugs.
      We obtained data on pharmacy payment and rebates for the first two quarters of Federal fiscal
      year 2001 (October 2000 - March 2001). The Department of Veterans Affairs and the CMS
      provided the Federal Ceiling Prices, the Federal Supply Schedule prices, the Big 4 prices, and
      340B ceiling prices.

FINDINGS

The 10 State Medicaid agencies reviewed paid more than other Government
purchasers for the 25 mental health drugs reviewed

      Despite Federal and State measures to reduce prescription drug expenditures for the Medicaid
      program, the 10 State Medicaid agencies’ paid more than the other Federal prices reviewed.
      The complete range of differences between each program’s average price to Medicaid’s
      average net price is listed in the chart below.

                      Average Percent Difference between Medicaid Net Prices
                         and other Federal Drug Purchasers’ Prices, FY2001
                                                                             Percent More Paid by
                     Federally-Mandated Drug Schedules                             Medicaid

                     Federal Ceiling Prices                                          27%

                     340B Ceiling Prices                                             13%

                     Federal Drug Contract Prices

                     Federal Supply Schedule Prices                                  11%

                     Big 4 Prices                                                    29%
                    Source: OIG survey of State Medicaid drug expenditures


As a result of price differences, the 10 State Medicaid agencies paid, on average,
between $47 and $126 million more for the 25 mental health drugs than other
Federal purchasers

      Medicaid would have saved $47 million if it had been able to pay prices equivalent to the
      Federal Supply Schedule prices and $126 million if it had paid prices equal to the Big 4 prices.
      In comparison to the Federal Ceiling Prices and the 340B ceiling prices, Medicaid would have
      saved $116 and $66 million, respectively, for the 25 drugs. The subgroup of nine antipsychotic
      drugs accounts for over half of the difference between Medicaid and the two ceiling pricing
      schedules.


    Medicaid Mental Health Drugs                           ii                                       OEI-05-02-00080
CONCLUSION

     To safeguard the Medicaid program from excessive payments and capitalize on potential
     savings, we encourage CMS to reconsider previous OIG recommendations. In past reports,
     the OIG has recommended that CMS work with States to pursue more efficient means of
     purchasing pharmaceuticals and initiate a review of the Medicaid rebate program. We also
     suggest that CMS share this report with the States.




   Medicaid Mental Health Drugs              iii                                    OEI-05-02-00080
                              TABLE OF CONTENTS


                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Compared to Other Federal Purchasers, Medicaid Paid More . . . . . . . . . . . . . . . . . . . . . . . 6


          Medicaid Paid Between $47 and $126 Million More . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A: Sampled Mental Health Drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                12 

          B: Related Office of Inspector General Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . .                           14 

          C: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      16 

          D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18 


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 





        Medicaid Mental Health Drugs                                  iv                                                         OEI-05-02-00080
                                   INTRODUCTION

OBJECTIVE

      To measure the efficiency and economy of the Medicaid program as a purchaser of mental
      health drugs by comparing Medicaid to four other Federal payers.

BACKGROUND

      Title XIX of the Social Security Act established Medicaid to be a jointly-funded, Federal-State
      health insurance program. Medicaid plays a fundamental role in the provision of prescription
      drugs to over 42 million low-income and disabled beneficiaries, spending an estimated $20
      billion in 2001.1 In fact, 12 percent of adults rely on Medicaid to cover their physical and
      mental health care needs.

      In purchasing mental health drugs, as with all Medicaid expenditures, Title XIX requires States,
      as part of their State plan, to provide “methods and procedures” to assure that payments are
      “consistent with efficiency, economy, and quality of care.”2 The Centers for Medicare &
      Medicaid Services (CMS) exercises this control in two ways. In 1987, CMS published a
      notice of the final rule (52 FR 28648) that limits Medicaid reimbursement to pharmacies.
      According to the rule, State payments to pharmacies are limited to the agency’s “best estimate
      of the price generally and currently paid [to wholesalers] by providers for the drug.” In
      addition, States are authorized to collect rebates from drug manufacturers for drug purchases
      made under the Medicaid program.

Medicaid and Mental Health Drugs

      Overall expenditures for prescription drugs grew more than twice as fast as total Medicaid
      spending from fiscal years (FYs) 1998 to 2000. More specifically, expenditures for drugs
      used for the treatment of mental disorders are among the fastest-rising costs for Medicaid,
      currently representing an estimated 20 percent of Medicaid’s total payment for pharmaceuticals
      ($4 billion).3 For 15 States, spending on mental health drugs exceeds 20 percent of the total
      Medicaid drug expenditures.4

      For some State Medicaid programs, the costs of treating mental disorders, such as
      schizophrenia and depression, have surpassed expenditures for medications to treat traditional
      high-cost ailments, such as high blood pressure, respiratory problems, and diabetes.5 Among
      the various categories of mental health drugs, spending on anti-psychotic medications is the
      highest, accounting for 11 percent of Medicaid’s total pharmacy costs for all drugs.6
      Antidepressants and anti-anxieties are also listed among the highest cost medications in
      Medicaid programs.

    Medicaid Mental Health Drugs                 1                                         OEI-05-02-00080
Related Work by the Office of Inspector General

       The Office of Inspector General (OIG) has issued a significant body of work related to
       Medicaid drug pricing, including such topics as reimbursement, rebates, and the accuracy of
       Average Wholesale Price. This report is part of the OIG’s continuing work focusing on
       Medicaid’s expenditures for specific classes of pharmaceuticals. In the report entitled “Cost
       Containment of Medicaid HIV/AIDS Drug Expenditures” (OEI-05-99-00611), OIG found
       that Medicaid pays up to 33 percent more than other Federal drug discount programs for 16
       antiretroviral drugs. Medicaid could have saved $102 million in Federal/State funds in fiscal
       year 2000, if the 10 sampled States had purchased the 16 antiretrovirals at Federal Ceiling
       Prices. Based on these findings, OIG recommended that CMS review the current
       reimbursement methodology and work with States to find a method that more accurately
       estimates pharmacy acquisition cost. Additionally, OIG recommended that CMS initiate a
       review of Medicaid rebates. See Appendices B and C for a more complete list of related OIG
       reports.




     Medicaid Mental Health Drugs                2                                       OEI-05-02-00080
OBJECTIVE, SCOPE AND METHODOLOGY

Objective and Scope

      The objective of this report was to measure the efficiency and economy of Medicaid’s mental
      health drug purchases. To do this, we compared Medicaid’s prices for mental health drugs to
      those of four other Federal pricing schedules also designed to limit the Government’s payments
      for prescription drugs. In addition to Medicaid’s cost containment measures, Federal payments
      for outpatient drugs are contained through: 1) Federal Ceiling Prices (FCP), 2) 340B Drug
      Discount Program ceiling prices, 3) Federal Supply Schedule prices (FSS), and 4) Big 4
      (Department of Defense (DoD), Department of Veterans Affairs (VA), Public Health Service
      (PHS), and the Coast Guard) prices. Table A illustrates how each of the discounts operate.

                                   Table A: Federal Discount Formulas
            Drug Purchasing Program             Eligible Purchasers             Discount Mechanism

                                                                          !Aggregate limits on
     Medicaid                               State Medicaid Agencies       pharmacy reimbursement
                                                                          !Approximately 15.1% off
                                                                          manufacturer prices

     Federal Ceiling Prices                 the Big 4 agencies            At least 24% off manufacturer
                                            (DoD, VA, PHS, and Coast      prices
                                            Guard)

     340B Drug Discount Program             certain Federally-qualified   Approximately 15.1% off
                                            groups and grantees           manufacturer prices

     Federal Supply Schedule                specified agencies            Contracts negotiated with
                                                                          manufacturers capped by
                                                                          “most favorable customer
                                                                          prices”

     Big 4 prices                           Big 4 agencies                Contracts negotiated with
     (Represents the 4 agencies’                                          manufacturers capped by the
     “actual” price)                                                      Federal Ceiling Prices, but the
                                                                          lowest of several possible
                                                                          prices including the FSS


      The four Federal pricing mechanisms used in our comparisons offer a robust picture of the
      prices available across Federal programs. Comparing Medicaid prices to theoretical upper
      limits represented by the FCP and the 340B ceiling prices provided a means to assess
      Medicaid in relation to other programs with statutorily-defined manufacturer discounts.
      Comparing Medicaid to FSS and the Big 4 provided an opportunity to evaluate the actual
      prices paid by Medicaid to the actual negotiated prices paid by other Federal agencies.




    Medicaid Mental Health Drugs                       3                                               OEI-05-02-00080
      In this inspection, we focused on differences in drug acquisition costs. For Medicaid, we
      defined acquisition costs as the net costs to Medicaid for mental health drugs. To calculate this,
      we subtracted the manufacturer rebates Medicaid received from the reimbursement rates
      Medicaid paid to pharmacies. For the other Federal prices used as points of comparison, drug
      acquisition cost equals the discounted price they pay for the drug.

      We did not attempt to factor in the cost of administrative overhead, drug distribution, and
      storage expenses. These expenses differ considerably depending on the drug purchasing and
      distribution systems employed by various pharmaceutical purchasers. Including these costs in
      our comparisons would result in a discussion of the cost-effectiveness of particular purchasing
      and distribution systems, and a discussion of that magnitude is beyond the scope of this report.

Methodology

      Based on data from the National Pharmaceutical Council’s 1999 guide to State pharmaceutical
      benefits, we purposively selected State Medicaid agencies representing the top 10 States in
      terms of the highest amount of Medicaid reimbursement for prescription drugs. The States are:
      California, New York, Florida, Texas, Ohio, Illinois, Pennsylvania, Massachusetts, North
      Carolina, and New Jersey. These 10 States accounted for 58 percent of the total Medicaid
      drug payment amount ($7.9 billion out of $13.7 billion).

      We identified mental health drug classes using the Food and Drug Administration (FDA) list of
      therapeutic classes. We examined three of the four FDA-classified groups of mental health
      drugs: anti-anxiety, antidepressant, and antipsychotic/anti-maniac. We did not look at the
      fourth class, sedatives/hypnotics, because most of the drugs in this category are prescribed as
      sleep aids rather than for mental disorders. From each of these three classes, we selected the
      10 National Drug Codes (NDCs)1 with the greatest total national reimbursement, including all
      doses and package sizes of each NDC, based on an analysis of the calendar year 2000 Drug
      Utilization Files. After discovering generic versions were available for 5 of the NDCs2, our net
      sample was 25 brand-name drugs, representing 63 percent of the total national Medicaid
      payment for the 3 categories of mental health drugs in 2000.

      To gather data on State Medicaid agencies’ actual expenditures, we collected fee-for-service
      pricing data from each of the 10 sampled States in November 2001. The States reported their
      drug reimbursements, rebates and dispensing fees for the first 2 quarters of




      1	
                 Each drug manufactured in the United States has a unique National Drug Code (NDC) which identifies the
                 drug’s manufacturer, product dosage form, and packet size.

      2
                 Clozaril 100 mg, Wellbutrin 150 mg, and Xanax .5 mg, 1 mg, 2 mg

    Medicaid Mental Health Drugs                           4                                                OEI-05-02-00080
  Federal fiscal year 2001 (October 2000 - March 2001). Due to a variety of data issues
  regarding the rebates, we assumed 100 percent collection of rebates for all 10 States. This
  estimation consisted of multiplying each State’s total units by the Medicaid unit rebate amount.

  The State of California negotiated additional rebate amounts with the pharmaceutical
  manufacturers of each of the drugs in our sample. Therefore, to approximate California’s net
  cost, we subtracted an additional amount using a rough estimate of the rebate formula, per the
  State’s direction. The State did not submit any pricing data relating to the specific calculation
  or net amount of the supplemental rebates, as this information is proprietary.

  In addition to the pricing information, we conducted telephone interviews with the 10 State
  Medicaid pharmacy directors. We interviewed the directors to gain further understanding of
  State-specific program operations and to explore any cost containment efforts surrounding
  mental health drugs. The interviews were conducted between November 2001, and January
  2002.

  We also gathered information regarding pharmaceutical pricing from CMS and the Department
  of Veterans Affairs (VA). The CMS supplied us with the Average Manufacturer’s Prices, the
  Best Prices, the Medicaid Unit Rebate Amounts, and the 340B ceiling prices. The VA
  provided us with data on FCP and FSS contract prices.

  To represent Medicaid’s average net price, we calculated an average unit price per drug, per
  State for the two quarters worth of data collected. Each State’s average unit price per drug
  was then averaged to represent the average unit price Medicaid paid for each of the 25 drugs.
  We used this average per drug unit price as the point of comparison to the unit price per drug
  for the other Governmental programs. We also calculated and utilized average FCPs because
  our study spanned a time period in which the FCP was refigured. The median difference
  between the calculated average FCP and any given FCP for the 25 drugs is 2 cents.

  This report reveals no specific drug pricing information because of the proprietary nature of this
  data. Toward this end, most estimates are averages and all estimates have been rounded. All
  savings estimates based on this information have been aggregated and rounded down for
  conservative estimates.

  We conducted our review in accordance with the Quality Standards for Inspections issued
  by the President’s Council on Integrity and Efficiency.




Medicaid Mental Health Drugs                  5                                          OEI-05-02-00080
                                            FINDINGS

      To measure Medicaid’s efficiency as a Government purchaser of pharmaceuticals, this study

      compared 10 State Medicaid programs’ net costs for 25 mental health drugs to four other

      Federal pricing schedules. Our review revealed that Medicaid’s net costs for the 

      25 mental health drugs were the highest among all of the Government purchasers. Medicaid

      could have saved between $47 and $126 million, on average, if they had been able to achieve

      the lower prices paid by the other Federal purchasers for these 25 mental health drugs. 


The 10 State Medicaid agencies paid more than other
Government purchasers for the 25 mental health drugs
reviewed

      Despite Federal and State measures to reduce prescription drug expenditures for the Medicaid
      program, the 10 State Medicaid agencies’ average net price was between 11 and 29 percent
      more for the 25 sampled drugs than the other Federal programs. Table B demonstrates the
      complete range of differences between each programs’ average price and Medicaid’s average
      net price. See Appendix A for a breakdown of the percent differences between Medicaid and
      each of the other Federal purchasers by drug.

     Table B: Average Difference Between Medicaid Prices and Other Federal Prices
                 Federally-Mandated Drug Schedules                       Percent More Paid by Medicaid

                 Federal Ceiling Prices                                                 27%

                 340B Ceiling Prices                                                    13%

                 Federal Drug Contract Prices

                 Federal Supply Schedule Prices                                         11%

                 Big 4 Prices                                                           29%
                Source: OIG survey of State Medicaid drug expenditures


Medicaid pays more than other programs with statutorily-defined discounts

      On average, the net cost to the Medicaid program for the 25 mental health drugs reviewed was
      13 percent higher than the 340B ceiling prices, ranging from 9 to 28 percent. Medicaid paid an
      average 26 cents more per pill than the 340B ceiling price. The difference ranged from 6 cents
      more per pill for Buspar (5 mg, 500 units) to 65 cents more for Zyprexa (10 mg, 60 units).



    Medicaid Mental Health Drugs                           6                                             OEI-05-02-00080
      On average, Medicaid paid 27 percent more than the FCP. The differences between
      Medicaid’s average net price and the FCP ranged from Medicaid paying 7 percent more for
      Buspar (10 mg, 500 units) to 50 percent more for Effexor (75 mg, 100 units). For over half of
      the sampled drugs, Medicaid paid at least 25 percent more than the FCP. Translated into
      actual dollar differences, Medicaid paid 48 cents more, on average, than the FCP. This
      difference ranged from 4 cents more per pill for Buspar (5 mg, 500 units) and $1.30 more for
      Zyprexa (10 mg, 60 units).

      It is important to remember that these two pricing schedules - the FCP and the 340B - are
      computed ceiling prices. The actual prices paid by entities covered by these programs can be,
      and typically are, below the mandated ceiling prices. For example, the Big 4 prices represent
      the actual prices paid by agencies benefiting from the FCP. When Medicaid’s prices are
      compared to the theoretical upper limit set by the FCPs, there is a 27 percent gap. However,
      this discrepancy grows to 29 percent when Medicaid’s prices are compared to the actual
      prices paid by the agencies benefitting from the FCPs.

Medicaid also pays more in comparison to Federally-contracted prices

      In addition to comparing Medicaid’s net prices to other statutorily-defined prices, we
      compared Medicaid’s prices to the Federally-contracted prices of the FSS. This comparison
      involved both direct FSS prices as well as the prices actually paid by the
      Big 4 (VA, DOD, PHS and Coast Guard).

      Medicaid’s net cost, on average, was 11 percent higher than the FSS prices. This translates
      into an average of 23 cents more per pill. Overall, Medicaid paid more for all the drugs in the
      sample except the four versions of Risperdal (1 mg, 2 mg, 3 mg, and 4 mg). In these four
      instances, the 10 State Medicaid agencies paid an average of 13 percent less than the FSS
      contract prices, or 47 cents less per pill. With the exception of Risperdal, State Medicaid
      agencies paid between 1 cent more to $1.02 more per pill than the FSS, averaging 36 cents
      more per pill than the FSS contract.

      Comparing Medicaid’s average net prices to the Big 4 prices, we found that Medicaid’s price
      was 29 percent higher. Medicaid’s prices ranged from 6 percent to 67 percent higher than the
      prices paid by the Big 4. For 4 of the drugs, Medicaid paid approximately 50 percent more
      than the Big 4 prices. On average, States paid anywhere from 4 cents to $1.28 more per pill
      than the Big 4 agencies, averaging 51 cents more per pill.




    Medicaid Mental Health Drugs                 7                                         OEI-05-02-00080
As a result of price differences, the 10 State Medicaid
agencies paid, on average, between $47 and $126 million
more than other Federal purchasers for the 25 mental health
drugs

     The 10 State Medicaid agencies would have saved, on average, between $47 and $126 million
     during the first 2 quarters of FY 2001 if they were able to obtain the lower prices of the other
     Federal drug purchasers for the 25 mental health drugs. The States would have saved a total of
     $116 million in the 2 quarters if their drug prices equalled the FCPs. This savings represents
     approximately 20 percent of the 10 States’ net costs for this time period. The Federal share of
     this savings is over $62 million. The 10 States would also have saved over $66 million if their
     prices for the 25 mental health drugs had equalled the 340B ceiling price.

     We additionally analyzed the potential savings for the Medicaid program if they were able to
     obtain prices comparable to FSS and Big 4 prices. While State Medicaid agencies do not
     currently negotiate directly with pharmaceutical manufacturers, these comparisons demonstrate
     the potential savings negotiations might be able to offer the Medicaid program. In fact, faced
     with dramatic increases in drug prices, more than 20 States are exploring the creation of
     purchasing coalitions with the intention of wielding aggregate purchasing power to negotiate
     lower prices.7

     The difference between FSS prices and Medicaid prices translates into potential Medicaid
     savings of $47 million semiannually. If the 10 State Medicaid agencies received prices similar
     to those negotiated for the Big 4, they would have saved $126 million during the same time
     period. Table C illustrates the potential savings in comparison to each Federal pricing program.

                                      Table C: Average Medicaid Savings
                Federally-Mandated Drug Schedules                       Savings (millions)

                Federal Ceiling Prices                                        $116

                340B Ceiling Prices                                            $66

                Federal Drug Contract Prices

                Federal Supply Schedule Prices                                 $47

                Big 4 Prices                                                  $126
               Source: OIG survey of State Medicaid drug expenditures




   Medicaid Mental Health Drugs                           8                                  OEI-05-02-00080
The nine antipsychotic drugs reviewed constitute more than half of the potential
savings between Medicaid and the other ceiling prices

      The 25 mental health drugs in our sample can be broken down into three drug classes: anti-
      anxieties, antidepressants, and antipsychotics. The savings potential for the anti-psychotic
      drugs far exceeds the saving potential for the other two classes of drugs. The savings for the 9
      drugs in this class represents 68 percent of the total the 10 States would save if their prices
      equalled FCP and 58 percent of the total if the States’ prices equalled the 340B ceiling price.
      Table D illustrates Medicaid’s average unit difference and savings potential by class.

    Table D: Medicaid’s Average Unit Difference and Savings Potential by Drug Classification

         Drug Class                     Unit             Savings         Unit Difference         Savings
                                    Difference to        Estimate            to 340B             Estimate
                                        FCP

         antipsychotic                 79 cents            $79 M             37 cents                $38 M


         antidepressant                37 cents            $31 M             23 cents                $22 M


         anti-anxiety                  21 cents            $5 M              16 cents                $5 M


       Source: OIG survey of State Medicaid drug figures , all expenditures have been rounded down


      The antipsychotics in our sample represent the greatest savings because of their higher costs
      and their higher utilization than drugs from the other classes.   In fact, the 5 drugs with the
      greatest gap in unit price between Medicaid and the FCP are all antipsychotics: Zyprexa (10
      mg), Risperdal (4 mg), Seroquel (200 mg), Zyprexa (5 mg), and Zyprexa (2.5 mg). Medicaid
      would have saved $60 million semiannually if the net prices for just these 5 antipsychotics
      equalled the FCP, accounting for 52 percent of the total savings estimated for all 25 drugs in
      our sample. Antipsychotics are also heavily prescribed. In fact, just 2 of these antipsychotics
      represent almost 20 percent of all of the prescriptions for the 10 States.

      Our analysis specifies that one drug, Zyprexa (10 mg), contributes significantly to the high cost
      and utilization of antipsychotics. Medicaid paid $1.30 more than the FCP for Zyprexa (10 mg),
      compared to 72 cents more, on average, for the other antipsychotics. Zyprexa (10 mg) also
      leads in savings for the Medicaid program when prices are compared to the 340B, FSS, and
      Big 4 price. Further, the number of prescriptions dispensed for Zyprexa (10 mg) lead all other
      NDCs sampled by far with 371,823 prescriptions filled in 6 months. The drug with the second
      highest number of prescriptions is Risperdal (1 mg), but it falls behind Zyprexa (10 mg) by a
      significant 105,000 bottles with 267,247 prescriptions filled. Because of this, Zyprexa (10 mg)


    Medicaid Mental Health Drugs                          9                                                  OEI-05-02-00080
  is the top drug for savings for all 10 States and all 25 drugs at $58 million a year compared to
  the FCP and $14 million a year compared to the 340B price.

  Antipsychotics represent the largest potential for savings in relation to the other drug classes,
  and also comprise a significant portion of the total Medicaid drug budget. In FY 2001, the 10
  State Medicaid agencies in our sample spent $562 million on all 25 drugs selected, 67 percent
  of that expenditure, $378 million, purchased the 9 antipsychotics represented in our sample.
  These same nine antipsychotics represent 4 percent of the $20 billion Medicaid spent on all
  prescription drugs for FY 2001.

  The rapid growth in expenditures for antipsychotics has raised concerns in the State Medicaid
  programs as they struggle to contain program costs. States are concerned with finding
  strategies for maximizing cost-effectiveness while maintaining current access. Since Medicaid
  is the main provider of care for persons with schizophrenia, an illness that typically requires
  long-term drug therapy with these drugs, consistent, if not increasing, demand seems likely.

  Program savings through reducing drug costs represent a powerful means of maintaining current
  levels of service in the face of tightening budgets. For example, saving $79 million in drug
  acquisition costs for antipsychotics could help avoid restricting coverage of these crucial drugs.
  Alternate cost containment strategies, such as preferred drug lists and prior authorization, often
  exempt mental health drugs, making price containment strategies even more crucial for this set
  of drugs.




Medicaid Mental Health Drugs                 10                                         OEI-05-02-00080
                               CONCLUSION

  The law directs the Medicaid program to establish payment methods that are efficient and
  economical. We found that Medicaid agencies in 10 States spent between $47 and
  $126 million more for 25 mental health drugs in 6 months than they would have had they
  obtained the lower prices used by the other Federal programs reviewed.

  To safeguard the Medicaid program from excessive payments for mental health drugs and
  capitalize on potential savings, we encourage CMS to reconsider the OIG recommendations
  made in previous reports. While these past reports focus on reducing Medicaid’s costs for
  various classes of drugs, the analysis of each demonstrates the need for CMS to address the
  broader issues Medicaid faces in purchasing all drugs. For a listing of these reports, please
  refer to Appendices B and C. Given that this report provides further evidence of the problems
  plaguing the Medicaid prescription drug benefit program, it supports recommendations
  previously set forth by the OIG which have not yet been implemented. We also suggest that
  CMS share this report with the States.

  In particular, we continue to believe that CMS should implement the recommendations outlined
  in our report entitled, “Cost Containment of Medicaid HIV/AIDS Drug Expenditures” (OEI-
  05-99-00611). These recommendations are summarized below. For each of the
  recommendations, we offer CMS options for implementation, which are listed in Appendix B.

  <	         CMS should review the current reimbursement methodology and work with States to
             find a method that more accurately estimates pharmacy acquisition cost.

  <          CMS should initiate a review of Medicaid rebates.




Medicaid Mental Health Drugs                  11                                     OEI-05-02-00080
                                                                                      APPENDIX A



                                   Sampled Mental Health Drugs


                                               Anti-Anxieties
Drug Name             NDC            Medicaid/340B    Medicaid/FCP   Medicaid/ Big4     Medicaid/FSS
                                      Difference       Difference     Difference         Difference

 Buspar           00087081841            22%               12%            11%               11%

 Buspar           00087081844            17%               11%            11%               11%

 Buspar           00087081941            23%               8%             7%                7%

 Buspar           00087081944            18%               7%             7%                7%

 Buspar           00087082232            14%               28%            28%               28%

 Buspar           00087082233            12%               28%            27%               27%

 Buspar           00087082481            13%               28%            28%               28%




                                               Antidepressants
Drug Name             NDC            Medicaid/340B   Medicaid/FCP    Medicaid/ Big4     Medicaid/FSS
                                      Difference     Difference       Difference         Difference

  Prozac          00777310502            28%               11%            23%               .6%

  Zoloft          00049490066            15%               37%            55%               38%

  Zoloft          00049491066            14%               36%            54%               36%

  Celexa          00456402001            13%               32%            67%               35%

  Paxil           00029321013            14%               22%            22%               22%

  Paxil           00029321113            15%               22%            30%               30%

  Paxil           00029321213            15%               25%            34%               34%

Effexor XR        00008083301             9%               50%            50%               50%

 Remeron          00052010530            20%               30%            31%               31%




    Medicaid Mental Health Drugs                      12                                     OEI-05-02-00080
                                            Antipsychotics
Drug Name            NDC          Medicaid/340B   Medicaid/FCP   Medicaid/ Big4   Medicaid/FSS
                                   Difference      Difference     Difference       Difference

 Zyprexa         00002411260          11%               26%           26%             10%

 Zyprexa         00002411560          10%               27%           27%             10%

 Zyprexa         00002411760          10%               24%           24%             8%

Risperdal        50458030006          12%               19%           19%            -17%

Risperdal        50458032006          12%               21%           20%            -16%

Risperdal        50458033006          11%               28%           27%            -11%

Risperdal        50458035006          11%               26%           25%            -10%

 Seroquel        00310027110          11%               41%           42%             42%

 Seroquel        00310027210          10%               39%           41%             41%




   Medicaid Mental Health Drugs                    13                                  OEI-05-02-00080
                                                                                             APPENDIX B


          Related Office of Inspector General Report Summaries


“Cost Containment of Medicaid HIV/AIDS Drug Expenditures” (OEI-05-99-00611)
                           Findings                                          Recommendations

Medicaid pays up to 33 percent more than other          For the 16 HIV/AIDS drugs examined, CMS should
Federal Government drug discount programs for           review the current reimbursement methodology and
HIV/AIDS Drugs.                                         work with States to find a method that more accurately
                                                        estimates pharmacy acquisition cost.
                                                        <         Option 1: Develop safeguards to protect
                                                                  Medicaid from Average Wholesale Price
                                                                  manipulations, or

                                                        <         Option 2: Create national estimated
                                                                  acquisition cost for the States based upon the
                                                                  Average Manufacturers Price, or

                                                        <         Option 3: Share Average Manufacturer Price
                                                                  data with States so that they can accurately
                                                                  set Medicaid reimbursement amounts.


Differences in Federal drug pricing formulas are        CMS should initiate a review of the Medicaid rebates
partially responsible for cost discrepancies.           for the 16 HIV/AIDS drugs examined. Two options
                                                        include increasing the rebate percentage off AMP or
                                                        basing the rebates on AWP.
                                                        <          Option 1: Increase the rebate percentage off
                                                                   of Average Manufacturer Price, or

                                                        <         Option 2: Base the rebates on Average
                                                                  Wholesale Price rather than Average
                                                                  Manufacturer Price so that it is linked to the
                                                                  reimbursement methodology.


State reimbursement formulas affect the magnitude of
the gap between Medicaid and other Government drug
purchasers.

Medicaid could have saved $102 million if the 10
sampled States purchased the 16 antiretrovirals at
Federal Ceiling prices.




      Medicaid Mental Health Drugs                     14                                                 OEI-05-02-00080
“Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products for Brand
Name Drugs” (A-06-00-00023) & Review of Pharmacy Acquisition Costs for Drugs
Reimbursed Under the Medicaid Prescription Drug Program of ________” (A-06-01-00001
through A-06-01-00008)
(This nationwide audit resulted in 8 separate, State-specific reports. The States are: TX, FL, WI,
CO, MO, WA, WV, IN)

                           Findings                                             Recommendations

The actual acquisition cost for brand name drugs is         CMS should require the States to bring pharmacy
estimated to be a national average of 21.84 percent         reimbursement more in line with the actual acquisition
below AWP.                                                  cost of these drugs being realized by pharmacies.

If reimbursement had been based on the estimates of
this report, Medicaid could have saved $1.08 billion for
100 drugs in calendar year 1999.




      Medicaid Mental Health Drugs                         15                                               OEI-05-02-00080
                                                                               APPENDIX C


                     Related Office of Inspector General Reports



“Cost Containment of Medicaid’s HIV/AIDS Drug Expenditures” (OEI-05-99-00611)

“Medicare Reimbursement of Albuterol” (OEI-03-00-00311)

“Medicare Reimbursement of End Stage Renal Disease Drugs” (OEI-03-00-00020)

“Medicaid Pharmacy: Actual Acquisition Cost of Generic Prescription Drug Products”
(A-06-01-00053)

“Medicaid Pharmacy: Actual Acquisition Cost of Generic Prescription Drug Products”
(A-06-97-00011)

“Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products for Brand Name Drugs”
(A-06-00-00023)
       Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription
       Drug Program of _______ (all included in the 2001 reports)
       Texas Health and Human Services Commission (A-06-01-00001)
       Florida Agency for Health Care Administration (A-06-01-00002)
       Wisconsin Department of Health and Family Services (A-06-01-00003)
       Colorado Department of Health Care Policy and Financing (A-06-01-00004)
       Montana Department of Public Health and Human Services (A-06-01-00005)
       Washington Department of Social and Health Services (A-06-01-00006)
       West Virginia Department of Health and Human Services (A-06-01-00007)
       Indiana Family and Social Services Administration (A-06-01-00008)

“Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products for Brand Name Drugs”
(A-06-96-00030)
       Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription
       Drug Program of _______ (all included in the 1996 review)
       California Department of Health Services” (A-06-95-00062)
       Montana Department of Public Health and Human Services” (A-06-95-00068)
       Florida Agency for Health Care Administration” (A-06-95-00065)
       North Carolina Department of Human Resources” (A-06-95-00071)
       Delaware Department of Health and Social Services” (A-06-95-00063)
       Virginia Department of Medical Assistance” (A-06-95-00072)

     Medicaid Mental Health Drugs               16                                   OEI-05-02-00080
       New Jersey Department of Human Services” (A-06-95-00070)

       Nebraska Department of Social Services” (A-06-95-00069)

       Missouri Department of Social Services” (A-06-95-00067)

       District of Columbia Department of Human Services” (A-06-95-00064)

       Maryland Department of Health and Mental Hygiene” (A-06-95-00066)


“Excessive Medicare Payments for Prescription Drugs” (OEI-03-97-00290)

“Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and Reimbursement
for Medicaid Drugs” (A-06-97-00052)

“Medicaid Managed Care and HIV/AIDS” (OEI-05-97-00210)

“Medicaid Drug Rebates: The Health Care Financing Administration Needs to Provide Additional
Guidance to Drug Manufacturers to Better Implement the Program” (A-06-91-00092)

“Medicaid Drug Rebates: Inaccurate Reporting of Medicaid Drug Data by Pharmacies”
(A-06-91-00056)

“Medicaid Drug Rebates: Improvements Needed in the Health Care Financing Administration’s
Procedures to implement the Medicaid Drug Rebate Program” (A-06-91-00102)




     Medicaid Mental Health Drugs              17                                     OEI-05-02-00080
                                                                                 APPENDIX D


                                            Endnotes



1.	     Centers for Medicare & Medicaid Services, Health Care Industry Market Update:
        Pharmaceuticals. January 10, 2003.

2.      Section 1902(a)(30)(A) of the Social Security Act.

3.	     U.S. Department of Health and Human Services. (1999). Mental Health: A Report of the
        Surgeon General. Washington, DC & Centers for Medicare & Medicaid Services. (2000).
        State Drug Utilization Data.

4.	     "Pharmaceutical Benefits Under State Medical Assistance Programs", 1999 National
        Pharmaceutical Council. The 15 States are: ID, IN, IA, ME, MD, MA, MN, NH, ND, OR,
        RI, UT, VT, WA, WI.

5.      Mental Illness Drugs Top State List. (2001, February 9). The Dallas Morning News.

6.      Centers for Medicare & Medicaid Services. (2000). State Drug Utilization Data.

7.	     National Council of State Legislatures. 2002 Prescription Drug Discount, Bulk Purchasing &
        Price-Related Legislation. www.ncls.org/programs/health/drugdisc02.htm,.




      Medicaid Mental Health Drugs               18                                      OEI-05-02-00080
                               ACKNOWLEDGMENTS

This report was prepared under the direction of William C. Moran, Regional Inspector General for
Evaluation and Inspections in Chicago and Natalie Coen, Deputy Regional Inspector General. Other
principal Office of Evaluation and Inspections staff who contributed include:


Ann Maxwell, Project Leader                            Genevieve Nowolinski, Program Specialist
Madeline Carpinelli, Program Analyst




                               For information or copies of this report, please contact

                                         the Office of Inspector General’s 

                                       Public Affairs office at (202) 619-1343


                Reports are also available on the World Wide Web at our home page address:

                                           http://www.oig.hhs.gov/




Medicaid Mental Health Drugs                             19                                 OEI-05-02-00080
